         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Management Alert
Purchase of Computers for the U.S.
Department of Agriculture Forest
Service at the Savannah River Site




OAS-M-12-03                          March 2012
                                 Department of Energy
                                     Washington, DC 20585


                                         March 23, 2012

MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE




FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Management Alert on "Purchase of Computers for
                         the U.S. Department of Agriculture Forest Service at the Savannah
                         River Site"

IMMEDIATE CONCERN

In October 2011, the Office of Inspector General received a complaint that the U.S. Department
of Agriculture Forest Service - Savannah River (Forest Service) had purchased a number of
computers under its Interagency Agreement (Agreement) with the Department of Energy's
Savannah River Operations Office (SRO) that were not placed into use. The complaint also
alleged that the computers were being stored in a manner that left them vulnerable to theft or
misuse.

We confirmed the existence of 17 Hewlett-Packard (HP) desktop computers that had been
purchased in September 2010, by the Forest Service with SRO funds, with the intention of
connecting the computers to the Savannah River Site (SRS) network. One of the 17 computers
had been placed into use, while the other 16 were being stored in an SRS office building. In fact,
14 of the 16 unused computers were in unopened boxes. We also substantiated that the
computers were not stored in a secure location, making them vulnerable to theft or diversion.
Furthermore, we determined that, contrary to property management guidelines, none of the
computers had been recorded in a property accountability system. Because the computers
remain vulnerable to theft, and in light of the property control weaknesses identified, we are
bringing this matter to your attention in the form of a management alert.

BACKGROUND

In 1990, SRO entered into the Agreement with the Forest Service to conduct a natural resource
stewardship program at SRS. Under the terms of the Agreement, allowable costs to be
reimbursed by SRO include all reasonable and allocable expenditures incurred by the Forest
Service in performance of the defined scope of work. Accordingly, SRO reimburses the Forest
Service quarterly for all allowable costs incurred.
The Forest Service retains title to property purchased with funds provided by SRO until the
Agreement is terminated or expires, at which time the title would transfer to SRO. Also, per the
Agreement, excess SRO equipment and property shall be turned in for disposal through SRO's
authorized Asset Management Specialist. In February 2011, the Agreement was modified to
specifically address computer purchases. The amended Agreement stated that Forest Service
procured computers requiring site network access will be titled to SRO in order to maintain
security control of the items, provide appropriate network capability and support Forest Service
activities.

OBSERVATIONS AND CONCLUSIONS

We substantiated the allegation that 17 computers had been purchased in September 2010, 16 of
which had not been placed into use. We observed a room containing 17 stacked boxes with
identification stickers indicating the contents to be HP full-size desktop computers. Of the 17
computers, 14 were still in sealed boxes, but 3 had been opened. Of the three open boxes, two of
the opened boxes contained computers, but one box was empty. We determined that the final
computer was being used in another office in the same building.

   Computers Stored in SRS Office                   Opened Computer Box




We also substantiated the allegation that the computers were being stored in a largely unsecured
area. We observed that the main entrance to the building that housed the computers had a cipher
lock that was unlocked during business hours. The office containing the computers had exterior
windows that opened and a door that was equipped with a lock, but was opened and unlocked.
We made several visits to the storage location and each time found the building and the office
containing the computers unlocked. However, while the building was not locked during the day,
we verified that the building was secured after business hours.

We did not substantiate the allegation that the purchase of the computers represented a
procurement irregularity or that the Forest Service ignored the computer specifications provided
by SRO. We inquired of Forest Service and SRO personnel as to why the 17 computers in
question had not been placed into service, as intended. According to Forest Service personnel,
they have a blanket agreement to purchase computers from HP. Therefore, they coordinated
with SRO Help Desk personnel to identify an HP model that met specifications for being


                                                2
connected to the SRS network. Based on the recommendation of the Help Desk, the Forest
Service placed the order for the 17 computers. However, when the computers arrived, Help
Desk personnel determined that it would not be cost effective to connect all of the computers to
the SRS network for the limited purposes intended. The Help Desk estimated that it would cost
approximately $300 monthly per computer to maintain network connectivity and the Forest
Service only needed limited access to the internet and email. Therefore, the Help Desk
recommended that a more cost-effective arrangement be pursued.

Essentially, the computers were set aside until a more cost-effective solution for network
connectivity could be arranged. However, SRO Safeguards and Information Technology (IT)
officials who are responsible for managing and overseeing SRS automated data processing and
communications, to include identification of capability needs and acquisition of resources,
informed us that the Forest Service had not coordinated the planned purchase of the computers
with them. They noted that the Help Desk is not an authoritative source for managing and
overseeing Forest Service activities. According to SRO Safeguards and IT management
personnel, the alternative that is now being implemented to allow the computers to be placed on
the SRS network was available in March 2010, about 6 months before the computers were
acquired; but they were not consulted. This networking solution is less costly and will meet the
Forest Service's needs. Accordingly, we determined that much of the delay appears to have
occurred because the Forest Service's computer needs were not effectively communicated and
coordinated with the appropriate SRO IT personnel to ensure that a timely, workable solution
was arranged.

                                     Property Management

In addition to the above issues, we determined that the computers did not have adequate property
inventory controls, according to Department requirements. Specifically, although the computers
were received in September 2010, only one of the 17 computers had been tagged, and none had
been entered into SRO's property inventory system. Additionally, while one computer in an
open box did have a Forest Service tag with the computer model and serial number, the tag did
not have a Forest Service property number.

Upon receipt of the computers, the Forest Service had submitted paperwork to transfer the 17
computers to SRO, which would have caused the computers to be captured in SRO's property
management system. Transfer of the computers to SRO was necessary in order to permit SRO
personnel to install the standard site system configuration for network connectivity, since
licensing agreements prohibit computers that are not in the SRO property management system
from having the software installed. However, since the Help Desk determined that placing the
computers on the network was not cost-effective and it was attempting to come up with a more
cost-effective solution, the computers were set aside, and SRO never entered the items into its
inventory.

The Agreement requires that property purchased with SRO funds by the Forest Service be
managed in accordance with procedures established by Federal property management
requirements, as implemented by Forest Service regulations. Forest Service property
accountability personnel informed us that they do not categorize computers as sensitive

                                                3
equipment and thus computers are not captured in the Forest Service property management
system. However, the Agreement also requires the Forest Service to comply with Departmental
Orders which includes computers as sensitive property. Specifically, Departmental Order 580.1,
Department of Energy Personal Property Management Program, requires that equipment and
sensitive items, to include computers, are numbered for control purposes and marked legibly,
conspicuously and securely, using media such as bar code labels, decals and stamping.

Failure to properly tag and capture these computers in SRO's inventory prevents SRO from
minimizing the risk of loss or theft of sensitive equipment.

RECOMMENDATIONS

We recognize that the Agreement was modified in February 2011, to address additional
requirements for Forest Service computer purchases requiring site network access. However, we
noted there was conflicting guidance in the Agreement and believe that additional measures are
necessary to address the issues we have identified. Accordingly, we recommend that SRO
coordinate closely with the Forest Service regarding IT equipment purchases to:

   1. Ensure that the Forest Service is informed about the authoritative sources within SRO
      regarding computers and network connectivity issues;

   2. Ensure that computers purchased with SRO funds are appropriately safeguarded by
      Forest Service employees; and,

   3. Consider modifying the Agreement with the Forest Service to ensure that all sensitive
      property, purchased with SRO funds, is managed in accordance with the Department's
      implementation of Federal property management requirements, to include prompt
      inventory upon receipt and proper safeguarding.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Site management did not take issue with the facts presented in the report and agreed with the
resulting recommendation regarding the need for an effective protocol for coordination of
computers and network connectivity issues between the Forest Service and SRO. However,
management disagreed that the computers that were the subject of this review were Department
owned property and subject to the Department's Personal Property Management Program.

Regarding Recommendation 1, management agreed with our recommendation to ensure that the
Forest Service is informed about authoritative sources within SRO regarding network and
connectivity issues. We consider management's planned action to be responsive to the intent of
the recommendation.

Regarding Recommendation 2, while management agreed with our recommendation, it modified
its response to the recommendation to state it would ensure that computers purchased with SRO
funds "and require site network access" are appropriately safeguarded by Forest Service
employees. However, this is a mandatory process that is currently being followed and is

                                               4
required by site software licensing agreements for networked computers. As such, the planned
action does not address our concerns over accountability for computers purchased with
Department funds and in the possession of the Forest Service, but not requiring site network
access. Therefore, we do not believe management’s planned action is responsive to our
recommendation.

Finally, regarding Recommendation 3, management disagreed that the computers, and generally
speaking any personal property purchased by the Forest Service with Department funds under
the Agreement, are subject to the Department's requirements for management of personal
property. Rather, management indicated that such items are Agriculture personal property
subject to its own property management controls unless formally transferred to the Department.
Therefore, management sees no value added in requiring the Forest Service to operate under two
personal property management systems. However, we noted that these computers were
purchased using Department funds and are required, under the Agreement, to be returned to the
Department when no longer needed, indicating the Department's responsibility to ensure
appropriate final disposition of the property. As such, management should consider whether
increasing accountability over these items of sensitive equipment is beneficial and could help
reduce the risk of loss/theft.

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Senior Advisor for Environmental Management
    Manager, Savannah River Site
    Chief Financial Officer
    Chief of Staff




                                              5
                                                                    IG Report No. OAS-M-12-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the inspection would have been helpful to the reader in understanding
        this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report which would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
